IN THE
SUPREME COURT OF THE UNITED STATES
____________
No. ___
____________
JAMESTOWN S’KLALLAM TRIBE AND PORT GAMBLE S’KLALLAM TRIBE,
Applicants,
v.
LUMMI NATION,
Respondent.
________________________
APPLICATION TO THE HON. ELENA KAGAN
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
________________________
Pursuant to Supreme Court Rule 13(5), the Jamestown S’Klallam Tribe and
the Port Gamble S’Klallam Tribe (Applicants) hereby move for an extension of time
of 60 days, to and including December 17, 2021, for the filing of a petition for writ of
certiorari. Unless an extension is granted, the deadline for filing the petition for
certiorari will be October 18, 2021.
In support of this request, Applicants state as follows:
1.

The United States Court of Appeals for the Ninth Circuit rendered its

decision on June 3, 2021 (Exhibit 1), and denied a timely petition for rehearing on
July 20, 2021 (Exhibit 2). This Court has jurisdiction under 28 U.S.C. §1254(1).
2.

This case concerns the interpretation of federal treaties governing tribal

fishing rights in the Pacific Northwest near Seattle. The relevant treaties guarantee
the rights of Applicants and other tribes to continue fishing in their traditional or

“usual and accustomed” fishing grounds. Disputes over the extent of each tribe’s
traditional fishing grounds have long been governed by a procedural framework
established in a decision and decree issued by a federal district court in the Western
District of Washington. United States v. Washington, 384 F. Supp. 312 (W.D. Wash.
1974), aff’d, 520 F.2d 676 (9th Cir. 1975).
3.

The present dispute arose when another tribe, the Lummi Nation, began

fishing outside its own usual and accustomed fishing grounds, moving into
Applicants’ usual and accustomed fishing grounds in the Strait of Juan de Fuca.
Using the procedure established in the Washington decision, Applicants brought suit
to clarify that the Lummi Nation did not possess fishing rights in the Strait of Juan
de Fuca. The litigation lasted several years and resulted in four separate panel
decisions of the Ninth Circuit. In the first decision, the Ninth Circuit agreed that the
Lummi Nation did not possess fishing rights in the Strait of Juan de Fuca, but held
that the tribe did possess rights in nearby Admiralty Inlet. United States v. Lummi
Indian Tribe, 235 F.3d 443 (9th Cir. 2000). In the second decision, the Ninth Circuit
concluded that no court had yet defined the eastern boundary of the Strait of Juan de
Fuca, and the panel remanded to the district court to determine whether the Lummi
Nation possessed any rights in the waters immediately to the west of Whidbey Island,
which lies at the eastern edge of the Strait of Juan de Fuca. United States v. Lummi
Nation, 763 F.3d 1180 (9th Cir. 2014). In the third decision, the Ninth Circuit held
that the Lummi Nation possessed at least some rights in the waters west of Whidbey
Island, but reiterated that the tribe possessed no rights in the Strait of Juan de Fuca.

2

United States v. Lummi Nation, 876 F.3d 1004 (9th Cir. 2017). Finally, in the fourth
decision, the Ninth Circuit again refused to define the Strait of Juan de Fuca, yet this
time determined that the Lummi Nation possessed rights in all waters east of an
arbitrary line running from Trial Island to Point Wilson—right through the Strait of
Juan de Fuca. Exhibit 1 at 4-6.
4.

The Ninth Circuit’s decision throws long-established federal treaty

rights—together with Applicants’ traditional livelihoods—into chaos. Applicants and
other Pacific Northwest tribes in the Seattle area relinquished their right to defend
their traditional fishing grounds by force in exchange for having their rights defined
and adjudicated peacefully by federal treaty. Applicants depend on the federal courts
to fairly and consistently decide disputes with neighboring tribes over traditional
fishing grounds.

Here, however, the Ninth Circuit abdicated its duty.

Despite

concluding—correctly—that the Lummi Nation possessed no rights in the Strait of
Juan de Fuca, the Ninth Circuit repeatedly refused to define the Strait in relation to
the ever-larger area at the edge of the Strait claimed by the Lummi Nation. And
rather than reconcile conflicting panel decisions that both denied the Lummi Nation
any rights in the Strait and yet (seemingly unwittingly) awarded the tribe rights that
encroached on the Strait, the Ninth Circuit threw up its hands, embraced the
contradiction, and awarded the Lummi Nation rights that pushed even further into
the Strait. The result is a decision that upends treaty rights, defies geographic
reality, and empowers the Lummi Nation to deplete Applicants’ traditional fishing
grounds.

3

5.

The record below is extensive, covering a decade of proceedings, and

Applicants’ lead counsel in this Court, George W. Hicks, Jr., was not involved in all
of those proceedings. Lead counsel requires additional time to review the record and
proceedings in order to prepare and file a petition for certiorari that best presents the
arguments for this Court’s review.
6.

Applicants’ lead counsel also has substantial briefing and argument

obligations between now and the current due date, including a petition for certiorari
in AMN Services, LLC v. Clarke, No. _____ (U.S.) (to be filed in early September 2021);
a petition for certiorari in Delta Air Lines, Inc. v. Oman, No. _____ (U.S.) (due Sept.
9, 2021); a response brief in In re Retail Group Inc., No. 21-167 (E.D. Va.) (due Sept.
10, 2021); a response brief in In re Ultra Petroleum Corp. (Rockies Express), Nos. 2020623 & 21-20126 (5th Cir.) (due Sept. 17, 2021); a reply brief supporting certiorari
in Viking River Cruises, Inc. v. Moriana, No. 20-1573 (U.S.) (due Sept. 28, 2021);
second-chairing an oral argument in In re Ultra Petroleum Corp. (Ad Hoc Committee),
No. 21-20008 (5th Cir.) (Oct. 4, 2021); and a response brief due in In re Ultra
Petroleum Corp. (Talarico), No. 21-20049 (5th Cir.) (due Oct. 7, 2021). In addition,
Applicants’ co-counsel recently had a death in the family, and Applicants need time
during the upcoming fishing season to assess the full impact of the decisions below
on their communities.
7.

Finally, the COVID-19 Delta variant, and the corresponding increase in

COVID-19 in Applicants’ communities and Washington State more generally, has
created additional professional and personal disruptions for Applicants and

4

Applicants’ lead counsel and co-counsel, resulting in delays in correspondence,
decisionmaking, and the preparation of a petition for certiorari.
WHEREFORE, for the foregoing reasons, Applicants request that an extension
of time to and including December 17, 2021, be granted within which Applicants may
file a petition for writ of certiorari.
Respectfully submitted,

GEORGE W. HICKS, JR.
Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
george.hicks@kirkland.com
Counsel for Applicants
August 24, 2021

5

